Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  THE CALIFORNIA MEDICAID
      PROGRAM COULD
   SIGNIFICANTLY LOWER
PAYMENT RATES FOR SELECTED
DURABLE MEDICAL EQUIPMENT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       March 2014
                                                      A-09-13-02028
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The California Medicaid program could have saved an estimated $3.9 million on
 standard power wheelchairs, oxygen systems, and oxygen concentrators for 2011 by
 establishing a program similar to Medicare’s Competitive Bidding Program or revising its
 reimbursement methodology to obtain pricing similar to that program’s payment rates.

WHY WE DID THIS REVIEW

The Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive
Bidding Program (the Competitive Bidding Program) sets lower payment rates than conventional
Medicare payment rates for selected durable medical equipment (DME). Previously issued
Office of Inspector General reports on selected DME identified potential cost savings if
Medicaid State agencies had obtained pricing similar to the Competitive Bidding Program
payment rates. This review is part of a series of reviews in various States to identify Medicaid
program cost savings that could be achieved for selected DME and supplies.

Our objective was to determine whether the California Medicaid program (Medi-Cal) could have
achieved cost savings for standard power wheelchairs, oxygen systems, and oxygen
concentrators.

BACKGROUND

The California Department of Health Care Services (State agency) administers the Medi-Cal
program. The State agency allows eligible Medi-Cal providers (e.g., DME suppliers, hospitals,
and physicians) to bill for DME, including standard power wheelchairs, oxygen systems, and
oxygen concentrators. According to the State agency’s reimbursement methodology, providers
are reimbursed the lesser of (1) the dollar amount of the amount billed; (2) the guaranteed
acquisition cost plus a percentage markup established by the State agency; or (3) for standard
power wheelchairs, an amount that does not exceed 100 percent of the lowest maximum
allowance for California established by the Medicare program for the same or a similar item or
service or, for oxygen systems and concentrators, 80 percent of the lowest such allowance.

Under the Medicare Competitive Bidding Program, prices for selected DME sold in specified
competitive bidding areas (CBAs) are determined by suppliers’ bids rather than a fee schedule.
Effective January 2011, the Competitive Bidding Program established one CBA in California
during the first round of bidding (first-round California Medicare CBA).

HOW WE CONDUCTED THIS REVIEW

Our review covered Medi-Cal payments of approximately $12 million made in calendar year
(CY) 2011 for standard power wheelchairs, oxygen systems, and oxygen concentrators. For
these three product types, we reviewed all Medi-Cal payments for the lines of service for which
providers were allowed to be reimbursed at the Medi-Cal maximum payment rates. We
compared Medi-Cal’s payments for these product types with the first-round California Medicare



California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)   i
CBA payment rates for the same product types during the review period and calculated a
potential cost savings.

WHAT WE FOUND

The Medi-Cal program could have saved an estimated $3.9 million for CY 2011 by establishing
a competitive bidding program for reimbursement of standard power wheelchairs, oxygen
systems, and oxygen concentrators similar to Medicare’s Competitive Bidding Program or by
revising its reimbursement methodology to obtain pricing similar to the California Medicare
CBA payment rates. For the three product types reviewed, we determined that Medicare
payment rates in California’s CBA were significantly lower than the Medi-Cal payment
amounts.

WHAT WE RECOMMEND

We recommend that the State agency establish a competitive bidding program similar to
Medicare’s Competitive Bidding Program for reimbursement of standard power wheelchairs,
oxygen systems, and oxygen concentrators or revise its reimbursement methodology to obtain
pricing similar to the California Medicare CBA payment rates for these product types, which
could have resulted in cost savings of approximately $3.9 million for the 1-year period we
reviewed.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency disagreed with our finding that the
Medi-Cal program could have saved an estimated $3.9 million. The State agency commented
that it believed the savings estimate may be overstated. Regarding the recommendation, the
State agency commented that implementing a competitive bidding program for DME rate-setting
would require a significant workload and a lengthy competitive bidding process. The State
agency indicated that it would be more cost-effective to align DME rates to 80 percent of
Medicare’s rates annually and that it will update its DME Medi-Cal rates in 2014, which may
provide pricing similar to the California Medicare CBA payment rates. The State agency also
indicated that it will review a competitive bidding program to determine the benefits and costs
associated with adopting this reimbursement methodology in the future.

After reviewing the State agency’s comments, we maintain that our finding and our methodology
for calculating the potential cost savings are valid.




California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 The Medi-Cal Program: How Payment Rates Are Determined for
                   Durable Medical Equipment .............................................................................1
                 The Medicare Competitive Bidding Program: How the Federal Government
                   Has Obtained Lower Prices for Durable Medical Equipment ..........................2

           How We Conducted This Review....................................................................................2

FINDING .....................................................................................................................................3

           Medi-Cal Could Have Achieved Significant Cost Savings Through
            Competitive Bidding or Revising Its Reimbursement Methodology ...........................3

RECOMMENDATION ...............................................................................................................3

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................4

APPENDIXES

           A: Related Office of Inspector General Reports .............................................................5

           B: Audit Scope and Methodology...................................................................................6

           C: State and Federal Requirements for Reimbursement
                of Durable Medical Equipment ...............................................................................8

           D: State Agency Comments ............................................................................................9




California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)                                                iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

The Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive
Bidding Program (the Competitive Bidding Program) sets lower payment rates than conventional
Medicare payment rates for selected durable medical equipment (DME). Previously issued
Office of Inspector General (OIG) reports on selected DME identified potential cost savings if
Medicaid State agencies had obtained pricing similar to the Competitive Bidding Program
payment rates. This review is part of a series of reviews in various States to identify Medicaid
program cost savings that could be achieved for selected DME and supplies. (See Appendix A
for a list of related OIG reports.)

OBJECTIVE

Our objective was to determine whether the California Medicaid program (Medi-Cal) could have
achieved cost savings for standard power wheelchairs, oxygen systems, and oxygen
concentrators.

BACKGROUND

The Medi-Cal Program: How Payment Rates Are Determined for
Durable Medical Equipment

The California Department of Health Care Services (State agency) administers the Medi-Cal
program. The State agency allows eligible Medi-Cal providers (e.g., DME suppliers, hospitals,
and physicians) to bill for DME, including standard power wheelchairs, oxygen systems, and
oxygen concentrators. 1 According to the State agency’s reimbursement methodology, providers
are reimbursed the lesser of (1) the dollar amount of the submitted charge; (2) the guaranteed
acquisition cost plus a percentage markup established by the State agency; or (3) for standard
power wheelchairs, an amount that does not exceed 100 percent of the lowest maximum
allowance for California established by the Medicare program for the same or a similar item or
service or, for oxygen systems and concentrators, 80 percent of the lowest such allowance. 2

The Medi-Cal program may establish special procedures for purchasing medical devices through
competitive bidding or another process if the State assures (in the required certification) and the
Centers for Medicare & Medicaid Services (CMS) finds that adequate services or devices are
available to beneficiaries under those procedures. 3




1
    California Code of Regulations (CCR), Title 22, section 51321.
2
    California Welfare and Institutions Code, section 14105.48; CCR, Title 22, section 51521.
3
    Section 1915(a)(1)(B) of the Social Security Act (the Act) and 42 CFR §§ 431.51(d) and 431.54(d).


California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)     1
The Medicare Competitive Bidding Program: How the Federal Government
Has Obtained Lower Prices for Durable Medical Equipment

Under the Medicare Competitive Bidding Program, prices for selected DME sold in specified
competitive bidding areas (CBAs) are determined by suppliers’ bids rather than a fee schedule.
The goal of the Competitive Bidding Program is to reduce beneficiary out-of-pocket expenses
and create savings for taxpayers and the Medicare program while ensuring that high-quality
health care products and services are available to beneficiaries.

The first round of bidding closed in December 2009, and competitive bidding became
operational as of January 2011 in nine CBAs nationwide, including one in California consisting
of Riverside, San Bernardino, and Ontario (first-round California Medicare CBA). 4 This round
of bidding included 339 different DME items and supplies, identified by Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors established by CMS from 9 product
categories, which include (1) oxygen supplies and equipment 5 and (2) standard power
wheelchairs, scooters, and related accessories. The product types we reviewed came from those
two categories.

HOW WE CONDUCTED THIS REVIEW

Our review covered Medi-Cal payments of $12,030,711 made in calendar year (CY) 2011 for
standard power wheelchairs, oxygen systems, and oxygen concentrators. For these three product
types, we reviewed all Medi-Cal payments for the lines of service for which providers were
allowed to be reimbursed at the Medi-Cal maximum payment rates. We compared Medi-Cal’s
payments for these product types with the first-round California Medicare CBA payment rates
for the same product types during the review period and calculated a potential cost savings. 6 We
did not, however, analyze the cost associated with setting up a competitive bidding program
under Medi-Cal.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology. Appendix C contains the
State and Federal requirements for reimbursement of DME.




4
 CMS implemented competitive bidding in an additional 11 CBAs in California in the second round of bidding.
For these areas, competitive bidding became operational as of July 2013.
5
    Two of the product types we reviewed, oxygen systems and oxygen concentrators, are part of this DME category.
6
 The California Medicare CBA payment rates for the second round of bidding were not available until after our
analysis was complete.


California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)                 2
                                                   FINDING

MEDI-CAL COULD HAVE ACHIEVED SIGNIFICANT COST SAVINGS THROUGH
COMPETITIVE BIDDING OR REVISING ITS REIMBURSEMENT METHODOLOGY

The Medi-Cal program could have saved an estimated $3.9 million by establishing a competitive
bidding program for standard power wheelchairs, oxygen systems, and oxygen concentrators
similar to Medicare’s Competitive Bidding Program or by revising its reimbursement
methodology to obtain pricing similar to the California Medicare CBA payment rates.

We determined that Medicare payment rates obtained through competitive bids in the California
CBA for standard power wheelchairs, oxygen systems, and oxygen concentrators were
significantly lower than the Medi-Cal payment amounts. For the three product types that we
reviewed, the State agency reimbursed providers $12,030,711 for 53,167 lines of service for
which providers were allowed to be reimbursed the Medi-Cal maximum payment rates from
January 1 through December 31, 2011.

We estimated that the State agency’s payments could have been reduced to $8,151,859 if the
State agency had used a competitive bidding program similar to Medicare’s Competitive Bidding
Program or had revised its reimbursement methodology to obtain pricing similar to the
California Medicare CBA payment rates. This would have saved the Medi-Cal program
$3,878,852, or 32 percent of the total payments for the three DME product types reviewed. See
the table below for the potential cost savings for each of the three product types.

    Table: Potential Cost Savings to Medi-Cal for the Three DME Product Types Reviewed

                                                       California
                                  Medi-Cal            Medicare CBA            Potential Cost           Savings
        Product Type              Payments             Payments                  Savings              Percentage
    Standard power
    wheelchairs                   $6,459,059             $3,746,871              $2,712,188                 42
    Oxygen concentrators           4,915,410              3,849,825               1,065,585                 22
    Oxygen systems                   656,242                555,163                 101,079                 15
      Total                      $12,030,711             $8,151,859              $3,878,852                 32

                                           RECOMMENDATION

We recommend that the State agency establish a competitive bidding program similar to
Medicare’s Competitive Bidding Program for reimbursement of standard power wheelchairs,
oxygen systems, and oxygen concentrators or revise its reimbursement methodology to obtain
pricing similar to the California Medicare CBA payment rates for these product types, 7 which


7
  Because we did not analyze the cost associated with setting up a competitive bidding program under Medi-Cal, it
may be more cost effective for the State agency to revise its reimbursement methodology to obtain pricing similar to
the California Medicare CBA payment rates.


California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)                3
could have resulted in cost savings of approximately $3.9 million for the 1-year period we
reviewed.

                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our finding that the
Medi-Cal program could have saved an estimated $3.9 million. The State agency commented
that it believed the savings estimate may be overstated because there are varied economic regions
throughout the State that were not taken into account in our report. The State agency also
commented that it is likely that the savings amount would decrease with the inclusion of higher
cost areas. In addition, the State agency noted that rate methodology changes or updates that
reduce provider rates could cause issues with access to care for beneficiaries.

Regarding our recommendation, the State agency commented that implementing a competitive
bidding program methodology for DME rate-setting would require a significant workload and a
lengthy competitive bidding process. The State agency also commented that our savings
estimate did not take into account the cost associated with developing and implementing a
competitive bidding program. The State agency indicated that it would be more cost-effective to
align DME rates to 80 percent of Medicare’s rates annually and that it will update its DME
Medi-Cal rates in 2014, which may provide pricing similar to the California Medicare CBA
payment rates. The State agency also indicated that it will review a competitive bidding program
to determine the benefits and costs associated with adopting this reimbursement methodology in
the future.

The State agency’s comments appear in their entirety as Appendix D.

After reviewing the State agency’s comments, we maintain that our finding and our methodology
for calculating the potential cost savings are valid. As noted in our report, we calculated the
potential cost savings using the California Medicare CBA payment rates that were available
when we did our analysis. In addition, as noted in our report, we did not analyze the cost
associated with setting up a competitive bidding program under Medi-Cal and therefore indicated
that it may be more cost-effective for the State agency to revise its reimbursement methodology.




California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)   4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                    Report Title                              Report Number                 Date Issued

The Minnesota Medicaid Program Could                           A-05-13-00015                 1/13/2014
Significantly Lower Payment Rates for Selected
Durable Medical Equipment and Supplies
Medicaid DMEPOS Costs May Be Exceeding                       OEI-06-13-00470                  9/5/2013
Medicare Costs in Competitive Bidding Areas
New Jersey Medicaid Program Could Achieve                      A-02-12-01010                  9/5/2013
Savings by Reducing Home Blood-Glucose Test
Strip Prices
The New York State Manufacturer Rebate                         A-02-11-01042                  7/2/2013
Program Significantly Reduced Medicaid Costs
for Home Blood-Glucose Test Strips But Could
Achieve Additional Reductions
Illinois Significantly Reduced Medicaid Costs for              A-05-12-00009                  5/6/2013
Home Blood-Glucose Test Strips But Could
Achieve Additional Reductions
The Ohio Medicaid Program Could Significantly                  A-05-12-00038                 4/30/2013
Lower Payment Rates for Selected Durable
Medical Equipment and Supplies
Indiana Reduced Medicaid Costs for Home                        A-05-12-00011                 6/21/2012
Blood-Glucose Test Strips by Approximately
50 Percent Using Manufacturer Rebates
Ohio Medicaid Costs for Home Blood-Glucose                     A-05-11-00098                 3/13/2012
Test Strips Could Be Reduced by Approximately
50 Percent




California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)       5
                       APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered Medi-Cal payments of $12,030,711 made in CY 2011 for standard power
wheelchairs, oxygen systems, and oxygen concentrators. For these three product types, we
reviewed all Medi-Cal payments for the lines of service for which providers were allowed to be
reimbursed at the Medi-Cal maximum payment rates. We did not, however, analyze the cost
associated with setting up a competitive bidding program under Medi-Cal.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency’s reimbursement
policies related to the three DME product types reviewed.

We conducted our audit from January to July 2013 and performed our fieldwork at the State
agency’s office in Sacramento, California.

METHODOLOGY

To accomplish our objective, we:

      •    reviewed Federal and State requirements for reimbursement of DME;

      •    identified the California Medicare CBA established as a result of the first round of
           bidding and its payment rates;

      •    identified the HCPCS codes for standard power wheelchairs, oxygen systems, and
           oxygen concentrators (the three product types reviewed) included in the first-round
           California Medicare CBA that are reimbursed by the Medi-Cal program;

      •    reviewed Medi-Cal payments for the three product types that were paid in CY 2011; 8

      •    identified the Medi-Cal payments for the lines of service for which providers were
           allowed to be reimbursed at the Medi-Cal maximum payment rates; 9

      •    determined the total number of payments and amounts reimbursed to providers by the
           State agency for each of the three product types;

      •    calculated the amounts that the State agency would have paid under the Medicare
           Competitive Bidding Program by multiplying the number of payments by the first-round
           California Medicare CBA payment rates for each of the three product types;

8
    These payments had dates of service during the period January 1, 2010, though December 31, 2011.
9
  These were the lines of service for which the Medi-Cal allowed amounts equaled the Medi-Cal maximum payment
rates. The Medi-Cal allowed amount is the maximum amount payable for a service by Medi-Cal and generally
represents what Medi-Cal would pay before any adjustments are made (e.g., for beneficiary coinsurance).


California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)         6
    •   determined the potential cost savings for CY 2011 by comparing the total amounts that
        the State agency reimbursed providers for the three product types with the amounts
        calculated using the first-round California Medicare CBA payment rates; and

    •   discussed the results of our review with State agency officials.

Although we did not independently verify the reliability of the Medicaid paid claim data, we
discussed the data with State agency officials, analyzed paid claims to identify variations in
payment rates, and obtained claim detail to verify Medi-Cal payment amounts for selected claims
to determine the reliability of the data. From these efforts, we concluded that the data obtained
from the State agency were reliable for this audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)   7
                  APPENDIX C: STATE AND FEDERAL REQUIREMENTS FOR
                   REIMBURSEMENT OF DURABLE MEDICAL EQUIPMENT

CALIFORNIA REQUIREMENTS

The CCR, Title 22, section 51321, allows the State agency to permit eligible Medi-Cal providers,
including hospitals, physicians, podiatrists, nurse practitioners, clinics, and pharmacies, to bill
for DME items.

The California Welfare and Institutions Code, section 14105.48, and the CCR, Title 22,
section 51521, allow the State agency to reimburse providers for DME items. The
reimbursement amount varies depending on the type of DME item and the reimbursement
options; however, the reimbursement amount is always the least amount available for
reimbursement. For purposes of this audit, the reimbursement amount is the lesser of (1) the
dollar amount of the submitted charge; (2) the guaranteed acquisition cost plus a percentage
markup established by the State agency; or (3) for standard power wheelchairs, an amount that
does not exceed 100 percent of the lowest maximum allowance for California established by the
Medicare program for the same or a similar item or service or, for oxygen systems and
concentrators, 80 percent of the lowest such allowance.

FEDERAL REQUIREMENTS

Medicaid Purchases of Durable Medical Equipment and Supplies

According to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR
§§ 431.51(d) and 431.54(d), the Medicaid agency may establish special procedures for the
purchase of medical devices through a competitive bidding process or otherwise, if the State
assures, in the certification required under section 431.51(d), and CMS finds that adequate
services or devices are available to beneficiaries under the special procedures.

Medicare Payment for Durable Medical Equipment and Supplies

Section 1834(a) of the Act provides the requirements for the DME fee schedule payment
methodology. Medicare generally pays for most medical equipment and supplies on the basis of
fee schedules. According to 42 CFR § 405.502(a), the law allows for flexibility in the
determination of reasonable charges to accommodate reimbursement to the various ways in
which health services are furnished and charged for. The criteria for determining which charges
are reasonable include the prevailing charges in the locality for similar services.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 10 mandated that
CMS establish the Competitive Bidding Program for selected DME, prosthetics, orthotics, and
supplies categories in competitive bidding areas. Round 1 of the Competitive Bidding Program
was implemented on January 1, 2011, for nine product categories in nine competitive bidding
areas. Round 2 was implemented on July 1, 2013, for 8 of the same product categories in
100 competitive bidding areas.
10
     P.L. No. 108-173, section 302, amending section 1847 of the Act.


California Medicaid’s Potential Cost Savings for Selected Durable Medical Equipment (A-09-13-02028)   8
                           APPENDIX D: STATE AGENCY COMMENTS 


                                 State of California-Health and Human Services Agency
        ~HCS

       u TOBY OOUGLAS
           DIRECTOR
                                 Departm ent of Health Care Services

                                                                                                               EDMUND G. BROWN JR.
                                                                                                                   GOVERNOR




             Ms. Lori A. Ahlstrand
             Regional Inspector General for Audit Services
             Office of Audit Services, Region IX
             90-?th Street, Suite 3-650
             San Francisco, CA 94103

             Dear Ms. Ah lstrand:

             The California Department of Health Care Services (DHCS) has prepared its response
             to the U.S. Department of Health and Human Services, Office of Inspector General
             (OIG) draft report entitled The California Medicaid Program Could Significantly Lower
             Payment Rates for Selected Durable Medical Equipment': audit number A-09-13-02028.

             DHCS appreciates the work performed by OIG and the opportunity to respond to the
             draft report. Please contact Ms. Sarah Hollister, Audit Coordinator, at (916) 445-2410 if
             you have any questions.




             Enclosure




                        1501 Capitol Avenue. Suite 71 .6001 , MS 0000 • P.O. 997413 • Sacramento. CA 95899-7413 

                                                  (91 6) 440-7400 • (916) 440-7404 FAX 

                                                    Internet address: \VWW.dhcs.ca.gov 





California .Medicaid's Potential Cost Savings for Selected Durable .Medical Equipment (A-09-1 3-02028)                               9
             Ms. Lori A. Ahlstrand
             Page2




             cc : 	   Karen Johnson, Chief Deputy Director
                      Department of Health Care Services
                      1501 Capitol Avenue, MS 0000
                      P.O. Box 997413
                      Sacramento, CA 95899-7413

                      Mari Cantwell, Chief Deputy Director
                      Department of Health Care Services
                      1501 Capitol Avenue, MS 0000
                      P.O. Box 997413
                      Sacramento, CA 95899-7413

                      Pilar Williams, Deputy Director
                      Health Care Financing
                      Department of Health Care Services
                      1501 Capitol Avenue, MS 0000
                      P.O. Box997413
                      Sacramento, CA 95899-7413

                      John Mendoza, Chief
                      Fee-For-Service Rates Development
                      Department of Health Care Services
                      1501 Capitol Avenue, MS 4612
                      P.O. Box 997413
                      Sacramento, CA 95899-7417




California .Medicaid's Potential Cost Savings for Selected Durable .Medical Equipment (A-09-1 3-02028)   10
        State of Gali fornia-Heallh and Human Serv~ces Agency                                   Department of Hoanh Care Services



                                               SECRETARY'S ACTION REQUESTED

          TO :                               Diana S. Dooley, Secretary
                                             Health and Human Services Agency

          FROM:                              Toby Douglas, Director
                                             Department of Health Care Services

          PREPARED BY:                       Sarah Hollister, Audit Coordinator
                                             Internal Audits
                                             (916) 445-2410
                                             auditcor@dhcs.ca.gov

          DATE:                              January 6, 2013

          SUBJECT:                           Department of Health Care Services· 30-day response to the Office of the
                                             Inspector General's draft report entitled, "The California Medicaid Program
                                             Could Significantly Lower Payment Rates for Selected Durable Medical
                                             Equipmenr audit number A-09-13-02028.



                            t8J Request for Approval                              0   For Secretary's Information

                            0    Request for Discussion                           t8l For Secretary's Sign ature
                                                                                  0   For Governor's Information




          Toby Douglas, irector                                                   Date
          Department of Health Care Services




         OHCS 1053 (ReviSed 12/08)




California Medicaid's Potential Cost Savings for Selected Durable Medical Equipment (A-0 9-13-02028)                                11
              DHCS' 30 Day Response to Draft Report
              OIG DME Audit
              Page 2


              SUMMARY/PRO-CON ARGUMENTS:

              Background
              The California Department of Health Care Seivices (State agency) administers the
              Medi-Cal program. The State agency allows eligible Medi-Cal providers (e.g., DME
              suppliers, hospitals, and physicians) to bill for DME, including standard power
              wheelchairs, oxygen systems, and oxygen concentrators. According to the State
              agency's reimbu rsement methodology, providers are reimbursed the lesser of (1) the
              dollar amount of the amount billed; (2) the guaranteed acquisition cost plus a
              percentage markup established by the State agency; or (3) for standard power
              wheelchairs, an amount that does not exceed 100 percent of the lowest maximum
              allowance for California established by the Medicare program for the same or a similar
              item or service or, for oxygen systems and concentrators, 80 percent of the lowest such
              allowance. Under the Medicare Competitive Bidding Program, prices for selected DME
              sold in specified competitive bidding areas (CBAs) are determined by suppliers' bids
              rather than a fee schedule. Effective January 2011, the Competitive Bidding Program
              established one CBA in California during the fi rst round of bidding (first-round California
              Medicare CBA).

              Summary of Findings
              The Medi-Cal program cou ld have saved an estimated $3.9 million by establishing a
              competitive bidd ing program for standard power wheelchairs, oxygen systems, and
              oxygen concentrators similar to Medicare's Competitive Bidding Program or by revising
              its reimbursement methodology to obtain pricing similar to the California Medicare
              Competitive Bidding Area (CBA) payment rates.

              The OIG determined that Medicare payment rates obtained through competitive bids in
              the California Medicare CBA for standard power wheelchairs, oxygen systems, and
              oxygen concentrators were significantly lower than the Medi-Cal payment amounts. For
              the three product types that were reviewed, the State agency reimbursed providers
              $12,030,711 for 53,167 lines of service for which providers were allowed to be
              reimbursed the Medi-Cal maximum payment rates from January 1 through December
              31,2011.

              The OIG estimated that the State agency' s payments could have been reduced to
              $8,151 ,859 if it had used a competitive bidding program similar to Medicare's
              Competitive Bidding Program or had revised its reimbursement methodology to obtain
              pricing similar to the California Medicare CBA payment rates. This would have saved
              the Medi-Cal program $3,878,852, or 32 percent of the total payments for the three
              durable medical equipment (DME) product types reviewed.

              DHCS Response
              DHCS does not agree with OIG's finding. Please see attached for more detail.




California .Medieaid's Potential Cost Savings for Selected Durable .Medical Equipment 0-09-13-0202 8)        12
              DHCS' 30 Day Response to Draft Report
              OIG DME Audit
              Page3



              EFFECTS ON EXISTING LAW: N/A

              TIME FACTOR: Due to Agency by January 15, 2014
                           Due to OIG by January 23, 2014

              RECOMMENDATION: Approval




California .Medicaid's Potential Cost Savings for Selected Durable .Medical Equipment (A-09-1 3-02028)   13
                          Department of Health Care Services Response to th e
                            Office of Inspector General' s Draft Report Entitled: 

                   The California Medicaid Program Could Significantly Lower Payment 

                              Rates for Selected Durable Medical Equipment 


         Finding #1: 	 MEDI·CAL COULD HAVE ACHIEVED SIGNIFICANT COST SAVING S
                       THROUGH COMPETITIVE BIDDING OR REVISING ITS REIMBURSE MENT
                       METHODOLOGY

         The Medi-Cal program could have saved an estimated $3.9 million by establishing a
         competitive bidding program for standard power wheelchairs, oxygen systems, and oxygen
         concentrators similar to Medicare's Competitive BiddingJ-?(ogram or by revising its
         reimbursement methodology to obtain pricing similar tp ,~~~ .Callfornia Medicare Competitive
         Bidding Area (CBA) payment rates.                  .({. ;,       .
                                                                                                               ..,-·_.-·.:_,"'

         The OIG determined that Medicare payment~re·s::obtained through-competitive bids in the
         California Medicare CBA for standard power~~~lchairs, oxygen systems, and oxygen
         concentrators were significantly lower than the Medi-Cal payment amouqts , For the three
         product types that were reviewed, the State agerr·' ·mbO:,-sed provider§fl?" 030,711 for
         53,167 lines of service for which pn~}iloeJS were all     ' be reimbursed the:Medi-Cal
         maximum payment rates from Janua'cy'jjhrough December 31, 201 1.
                                                                            •• /          't   •   .• •                          ~;


         The OIG estimated that the State agencyJs payments could have been reduced to $8,151,859
         if it had used a competitive 15id~iog program similart.O;.Medicare's Competitive Bidding
         Program or had revis~itS;rstmtili.tsement rnethocftiJOgyto obtain pricing similar to the
         California Medicare ~A paymeiit'lJates. This .w.ol:lltf have saved the Medi-Cal program
         $3,878,852, or 32 perceht,(;>phe tot9,fi payments..t or the three durable medical equipment
         (DME) producttyp~s reviewe-q~
                     :,_0:._:1!?~·0;;' .:'~   '
                                                 , in•
                                                                 ·~..• .:   ·b•.~'l j.,        •
                                                                                                          '!V.-~.J.,,.;~!;,
         Recomll}~J\~ation: The. OIG re" . thJ!lends that the 'State agency establish a competitive
         bidding p'r(igr~m similar tc>Medicare' s Competitive Bidding Program for reimbursement of
         standard p()~~r~wheelchairs:o~gen systems, and oxygen concentrators or revise its
         reimbursement~ethodology t6.®.>tain prlCtflg similar to the California Medicare CBA payment
         rates for these pr'Od~.tct types, 7 w jch could have resulted in cost savings of approximately
         $3.9 million for the '11L':year pe   ,., e reviewed.
                                              r..-: · ·:..
                                                  ~   ::   ...
         Department of Health Care .. . ces (DHCS) Response: DHCS recognizes the intent of a
         competitive bidding program (~BP) for certain (DME) services as a cost savings strategy, but
         does not agree with the estimated savings. The estimated $3.9 million reflects a statewide
         savings, but was limited to certain Competitive Bidding Areas (CBA). High cost areas , such as
         San Francisco, San Mateo and Santa Clara are not reflected because the savings estimate
         provided in the draft report is based on CBA projections for Riverside, San Bernardino and
         Ontario then compared to select Medi-Cal DME codes and rates. DHCS believes that the
         savings estimate may be overstated because there are varied economic regions throughout
         the state which are not taken into account in the report. DHCS also believes that the inclusion
         of bids from higher cost areas would more accurately reflect a reasonable rate; it is likely that
         the savings amount would decrease with the inclusion of the higher cost areas.


                                                                                               Page 1




CalifOrnia Medicaid's Potential Cost Savings f or Selected Durabk Medical Equipment (A-09·-13- 02028)                                 14
        DHCS notes that rate methodology changes or updates that reduce provider rates could cause
        access to care issues for beneficiaries. If an access to care barrier is proven as a result, DHCS
        would be required to develop a State Plan Amendment requesting an exemption of the rate
        reduction for the specified DME providers. This could negate savings achieved from the
        change on a statewide basis or in certain geographic areas, depending on where the access
        issues materialize, if approved by the federal government.

         Implementing a CBP methodology for DME rate-setting would require significant workload and
         a lengthy competitive bidding process. Any redirection of staff will adversely impact critical
         projects, which could negatively impact the state General Fund. Obtaining positions to
         conduct a CBP would be very difficult in the current fiscal enyi~onment. In addition , savings
         included in the draft report did not take Into account the cost~ssociated with developing and
         implementing a CBP under Medi-Cal. It would be more,.~~S,t:effective if DHCS aligns DME
         rates, for DME that have established rates, to 80 perc~t:·of • Medicare's rate on an annual basis
         as required in Welfare and Institutions Codes sectior1i:~1·os:4a, to obtain pricing similar to the
         California Medicare CBA payment rates.              , ~ ~0        '

                                                          ..   ~-              ·.
        DHCS Corrective Action Pla n: DHCS will update its DME Medi-Cal rates in 2014 so rates
        are aligned to 80 percent of the current Medica·r~ rates which may prov)'de·savings to the state
        General Fund and pricing similar to      CA Medica:~~,:CBA,'j:)ayment rates~,~~A:s.resources
        permit, DHCS will also review a                   ine th~ber,iefits and costs asSOciated with
        adopting this reimbursement                .in: the futur~~rY:::.




                                                      Page 2




CalifOrnia Medicaid 's Potential Cost Savings for Selected Durabk Medical Equipment (A-09·-13-02028)          15
